U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

April 5, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Sebhat Afework v. Velanta Monique Babbitt, et al.,
No. 20-925
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on January 7,
2021. The government’s response is now due, after two extensions, on April 12, 2021. We
respectfully request, under Rule 30.4 of the Rules of this Court, a further extension of time to and
including May 10, 2021, within which to file a response.
This extension is necessary because the attorneys with principal responsibility for
preparation of the government’s response have been heavily engaged with the press of previously
assigned matters with proximate due dates.
Counsel for petitioner does not oppose this further extension.
Sincerely,

Elizabeth B. Prelogar
Acting Solicitor General
cc:

See Attached Service List

20-0925
AFEWORK, SEBHAT
VELANTA MONIQUE BABBITT, ET AL.

MATTHEW S. FREEDUS
FELDESMAN TUCKER LEIFER FIDELL LLP
1129 20TH STREET, N.W.
4TH FLOOR
WASHINGTON, DC 20036
202-466-8960
MFREEDUS@FELDESMANTUCKER.COM

